<html>
<title> - A REGIONAL OVERVIEW OF SOUTH ASIA</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                   A REGIONAL OVERVIEW OF SOUTH ASIA

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                     THE MIDDLE EAST AND SOUTH ASIA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 25, 2009

                               __________

                           Serial No. 111-23

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
50-634                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e6819689a6859395928e838a96c885898bc8">[email&#160;protected]</a>  


                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ROBERT WEXLER, Florida               DONALD A. MANZULLO, Illinois
ELIOT L. ENGEL, New York             EDWARD R. ROYCE, California
BILL DELAHUNT, Massachusetts         RON PAUL, Texas
GREGORY W. MEEKS, New York           JEFF FLAKE, Arizona
DIANE E. WATSON, California          MIKE PENCE, Indiana
RUSS CARNAHAN, Missouri              JOE WILSON, South Carolina
ALBIO SIRES, New Jersey              JOHN BOOZMAN, Arkansas
GERALD E. CONNOLLY, Virginia         J. GRESHAM BARRETT, South Carolina
MICHAEL E. McMAHON, New York         CONNIE MACK, Florida
JOHN S. TANNER, Tennessee            JEFF FORTENBERRY, Nebraska
GENE GREEN, Texas                    MICHAEL T. McCAUL, Texas
LYNN WOOLSEY, California<greek-l>As  TED POE, Texas
    of 3/12/09 deg.                  BOB INGLIS, South Carolina
SHEILA JACKSON LEE, Texas            GUS BILIRAKIS, Florida
BARBARA LEE, California
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                                 ------                                

             Subcommittee on the Middle East and South Asia

                  GARY L. ACKERMAN, New York, Chairman
RUSS CARNAHAN, Missouri              DAN BURTON, Indiana
MICHAEL E. McMAHON, New York         JOE WILSON, South Carolina
SHEILA JACKSON LEE, Texas            J. GRESHAM BARRETT, South Carolina
SHELLEY BERKLEY, Nevada              JEFF FORTENBERRY, Nebraska
JOSEPH CROWLEY, New York             MICHAEL T. McCAUL, Texas
MIKE ROSS, Arkansas                  BOB INGLIS, South Carolina
JIM COSTA, California                GUS BILIRAKIS, Florida
KEITH ELLISON, Minnesota             DANA ROHRABACHER, California
RON KLEIN, Florida                   EDWARD R. ROYCE, California
BRAD SHERMAN, California
ROBERT WEXLER, Florida
ELIOT L. ENGEL, New York
GERALD E. CONNOLLY, Virginia
GENE GREEN, Texas
 Howard Diamond, Subcommittee Staff Director<greek-l>As of 4/20/09 deg.
           Mark Walker, Republican Professional Staff Member
                   Dalis Blumenfeld, Staff Associate


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Robert O. Blake, Jr., Assistant Secretary, Bureau 
  of South and Central Asian Affairs, U.S. Department of State...     6

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Robert O. Blake, Jr.: Prepared statement...........     9

                                APPENDIX

Hearing notice...................................................    34
Hearing minutes..................................................    35
The Honorable Gary L. Ackerman, a Representative in Congress from 
  the State of New York, and Chairman, Subcommittee on the Middle 
  East and South Asia: Prepared statement........................    36
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the State of Virginia: Prepared statement.................    39
Written responses from the Honorable Robert O. Blake, Jr. to 
  questions submitted for the record by:
  The Honorable Joseph Crowley, a Representative in Congress from 
    the State of New York........................................    41
  The Honorable Edward R. Royce, a Representative in Congress 
    from the State of California.................................    43
  The Honorable Gary L. Ackerman.................................    44


                   A REGIONAL OVERVIEW OF SOUTH ASIA

                              ----------                              


                        THURSDAY, JUNE 25, 2009

              House of Representatives,    
                Subcommittee on the Middle East    
                                        and South Asia,    
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:53 a.m., in 
room 2172, Rayburn House Office Building, Hon. Gary L. Ackerman 
(chairman of the subcommittee) presiding.
    Mr. Ackerman. The committee will come to order.
    In land area, South Asia, composed of the Nations of 
Pakistan, Afghanistan, India, Sri Lanka, Nepal, Bhutan, 
Bangladesh, and the Maldives, is half the size of the United 
States. Literally, two South Asias could fit within the borders 
of the United States.
    But South Asia is the home to more than 1.6 billion people, 
and the United States, just over 300 million. In India alone 
there are over 2,000 ethnic groups and 22 official languages. 
These facts are not a basis for policymaking, but they should 
be a cause for concern. South Asia is a region of almost 
unimaginable complexity, and we come to it as strangers, as 
outsiders.
    Unfortunately, for many Americans this region is still seen 
primarily through the lens of the attacks on our country on 
September 11th, 2001. This association is doubly tragic. The 
madmen responsible for 9/11 are, of course, not from South 
Asia, and their true ambitions are directed toward the Arab 
Middle East, not the subcontinent.
    But worse still, South Asia's own problems have become 
horribly engrossed in the struggle we face to destroy the 
threat of radical extremism. Before 9/11, India and Pakistan 
had fought several wars and gone to the brink of war many times 
over. Afghanistan was a badly ravaged country even before the 
Taliban took over and before al-Qaeda set up shop and began 
plotting the attacks on our country. Pakistan was not a stable 
democracy before we called upon that government to assist us in 
the fight against al-Qaeda and the Taliban.
    And it should be recalled, that before 9/11, the United 
States could not honestly claim that our commitment to either 
Afghanistan or Pakistan was sustained, deep, or serious. It 
wasn't. We used them, and they used us. And we assumed their 
dysfunctional governments and failing economies were problems 
of little consequence to us.
    We made a lot of assumptions: That the fundamental 
political instability of the region could be contained by 
states and constitutions, and that they would make the 
conflicts between religions, tribes, and ethnicities go away; 
that flags and governments would suffice in place of genuine 
political reconciliation; that the conflicts between states and 
within states would not bleed over borders, or at least not 
beyond the region; in short, that the complexity of South Asia 
could be sealed up and shrink-wrapped into tidy national 
packages and then left in cold storage.
    Suffice it to say, these assumptions didn't pan out. So 
today we are engaged in extensive military operations and 
massive efforts at governance and capacity building. At a time 
when our own economic and fiscal position is strained, the 
circumstances in Afghanistan and Pakistan still absolutely 
necessitate these extraordinary efforts.
    Like many, I remain concerned that all the money and 
initiative and effort--and let us never forget, the blood of 
our heroic troops--will be for naught if we don't start making 
some very fundamental changes in how we do business.
    We have poured billions of dollars in both economic and 
military assistance into both Afghanistan and Pakistan, and in 
many cases, it is not hard to conclude that the money was badly 
spent, if not completely wasted.
    We have fought for years in Afghanistan, and it can't be 
truthfully claimed that the country is safe and getting safer.
    Moreover, the current counterinsurgency campaign in 
Pakistan, though badly overdue, has given rise to massive 
displacement of approximately 2 million people. The anger and 
desperation of this population should give us pause if the 
continued growing public outrage about civilian casualties 
caused by our drone strikes was not enough.
    I have no doubt that we and our allies will not be able to 
destroy al-Qaeda and block the revanchist dreams of the Afghan 
Taliban and other militants in Pakistan without violence. The 
fanatic ambitions of these groups leave us and our allies no 
real alternative.
    What is becoming clear is that, while our own understanding 
of regional security, ethnic and tribal dynamics is growing, so 
too is the popular backlash against the methods we have been 
using. So something needs to change.
    Albert Einstein's warning holds true today: We can't solve 
our problems by using the same kind of thinking we used when we 
created them.
    In approving billions of dollars of assistance and 
supporting the heroic efforts of our troops and our diplomatic 
and development officers on the ground, Congress has done a 
great deal. But I wonder if perhaps we wouldn't do more if we 
helped infuse a bit more circumspection about our ability to 
buy or impose changes in the interests and perceptions of other 
states, a bit more cautiousness about our capacity to build the 
capacity of others, and maybe a bit more modesty about the 
ability of the U.S. military to deliver political 
reconciliation and economic development.
    Finally, I would be remiss if I didn't say a few words 
about the other states in the region. Truthfully, there is too 
much to say. With India, we are moving forward on what I 
believe can be and will be a true strategic partnership, one 
built on both shared values and genuine cooperation across a 
broad range of shared interests. Though people tend to focus on 
cooperation on nuclear energy, I believe the potential of the 
relationship is much, much greater.
    The recent Indian elections hold out real hope of a strong 
government in New Delhi that is ready and willing to address 
the many political and economic challenges facing a country 
that, despite its shining achievements in the new economy, 
remains overwhelmingly rural, agrarian, and impoverished. I 
think there is a tremendous opportunity for us to engage 
successfully with this government across the full spectrum of 
our interests.
    Special relationships aren't announced; they are built one 
agreement and one success at a time. It is time for New Delhi 
and Washington to get to work.
    Sri Lanka is emerging from an awful civil war, whose recent 
conclusion only opens new questions about how the Sinhalese and 
Tamils can reconcile themselves to sharing one government and 
one nation. The end of the war, and we all pray that the war is 
truly over, has left thousands upon thousands injured, 
displaced, and embittered.
    I think the United States should offer its assistance to 
relieving the suffering of the displaced as much as we can, 
while fully respecting the sovereignty of Sri Lanka, and we 
should encourage true national reconciliation.
    Bangladesh and Nepal are both transitioning to new and more 
democratic governments, which is good news, most of all to 
their own citizens. But I remain concerned that the fundamental 
political problems in both societies remain, by and large, 
unresolved. Ethnic tensions, endemic corruption, and political 
violence affect both countries and, I would argue, are going to 
continue until a broader consensus within these societies is 
achieved.
    Bhutan and the Maldives are both places where a little bit 
of United States assistance can go a very long way. In Bhutan, 
the progress toward democracy is heartening, and could probably 
benefit from some United States assistance in strengthening the 
capacity of the national assembly.
    The Maldives is in growing jeopardy from increasingly 
violent weather, rising sea levels, and a disturbing increase 
in local Islamic militancy. Again here, a small amount of 
United States help could help the Maldives Government cope with 
its own problems before they become problems for others or 
ourselves.
    If we should have learned one thing from that awful day in 
2001, it should be this: Either we visit bad neighborhoods on 
our terms, or eventually they are going to visit us on theirs.
    I turn now to the distinguished member from California, Mr. 
Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    And I am afraid that I will have to take the place of Mr. 
Burton today. I don't have a prepared statement----
    Mr. Ackerman. That is frightening.
    Mr. Rohrabacher [continuing]. Whereas I have been drafted 
to take Mr. Burton's spot, but I am a member of this 
subcommittee, and am very pleased to be able to expand my 
knowledge base today and also engage in the give and take for 
which I am inclined to do.
    Let me note I am not let's say someone who is totally 
unfamiliar with the region. And I have spent considerable time 
in my life in Afghanistan. And I have over the last 30 years, 
since the time I worked at the White House with Ronald Reagan, 
spent a lot of time focusing on Afghanistan. During the Cold 
War. We had a relationship with Pakistan and a relationship 
with India. We were allies with Pakistan; they had allied with 
us. India allied with the Soviet Union during the Cold War. 
That Cold War positioning still has some impact today, but we 
need to understand that the Cold War is long over. And the 
people of Pakistan have to understand that either they are the 
friends of the United States, or we are not going to be friends 
with them.
    This isn't the Cold War, where we need to be friends with 
Pakistan for a global strategy. And if indeed by not being 
friends with the United States Pakistan, the people of Pakistan 
bring chaos and bring bloodshed to their area, their region, 
they are the ones who will suffer. So I think one of the things 
that we should be focusing on, I would hope that the United 
States does more, now that the Cold War is over, to end the 
animosity between India and Pakistan than we did during the 
Cold War, because at that time, Mr. Chairman, we were just 
playing the game, the Cold War global game, and frankly, that 
has to be over with, and we should be focusing our activities, 
instead of building the military in Pakistan, which is still 
what some people--I am looking forward to hearing what 
Ambassador Blake has to say on this--some people still want to 
act as if the solution to the problem is a strong military in 
Pakistan; let me suggest that I think that is absolutely wrong.
    We should be doing everything that we can to encourage 
India and Pakistan not to waste their limited resources on 
weapons. And we can make that real by doing everything we can 
to try to mediate any differences between those two countries, 
because much of their weapons acquisition is done in the name 
of confronting each other. What a waste of resources for poor 
countries. We put up with that with the Pakistani Government 
for far too long. And I think that we need to focus on the 
policy of arming Pakistan and actually go in the opposite 
direction.
    We are not in the Cold War. We are in a war with radical 
Islam. Radical Islam declared war on the United States. We did 
not declare war on Islam. And the fact is we can live at peace, 
as our new President has bent over backwards to suggest, we can 
live at peace with the Islamic world. But there are segments of 
the Islamic world, radical segments that will not be satisfied 
until they have conducted a war on us. And that war is--nowhere 
is it hotter right now than in Afghanistan, again, the country 
that I traveled to years ago with a Mujahedin military unit and 
fought Russian troops outside the City of Jalalabad.
    And let me just note that while the Russian troops that I 
fought were brave, and we--they didn't want to be there either 
at that time, and that was part of our Cold War strategy. The 
Cold War is over, again. Not only did we change our policies 
toward India and Pakistan, we should do our best to bring 
Russia back into play. And I am looking forward to Mr. 
Ambassador Blake's reaction to that concept.
    So, with that, Mr. Chairman, I am looking forward to 
discussing and listening to the issues that are important today 
for this significant region, and I want to thank you for 
letting me take Mr. Burton's place for this moment.
    Mr. Ackerman. Thank you very much.
    I turn now to our distinguished colleague from South 
Carolina, Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And it is an honor to be here with you, Ambassador.
    And I like to point out that I grew up with a great 
appreciation of the people of South Asia. My father served in 
the Flying Tigers during World War II. He arrived by ship in 
Karachi, India, at the time, then traveled across India and 
served in Kunming and Xian, China. But as I was growing up, he 
told me how entrepreneurial and capable the people of South 
Asia are. And it has come to fruition.
    And so when Indian Americans started buying hotels and 
motels in the communities that I represent, I became their 
attorney. I said I know who you are. And so it was a great 
relationship. I was able to incorporate the Hindu Temple and 
Cultural Center of South Carolina. I have seen the Indian 
American population of the United States become assimilated to 
the point 2.2 million people, and this would include people of 
South Asia and of Pakistan also, with the highest per capita 
income of any immigrant group in the United States, with the 
highest percentage of millionaires of any immigrant group in 
the United States. So what a wonderful, positive relationship 
that we can have with the people of South Asia.
    And I also have an interest in Central Asia. The 
opportunities there, hopefully for the people of that region, 
with friendship with the United States, and that would even 
include, and I agree with my colleague always, Congressman 
Rohrabacher and I agree on about 92 percent of the things, but 
I would tell you I see a bright future for western Siberia. And 
so Russia itself can be looked at in different regions, as you 
look at America.
    And so I am very hopeful, and I wish you well in your 
service, and however I can work with my colleagues.
    And Congressman Ackerman and I have traveled together. What 
an extraordinary guy. He is tireless. So I look forward to 
working with this team.
    Thank you very much.
    Mr. Ackerman. Thank you very much.
    We turn now to our colleague from California, Mr. Costa.
    Mr. Costa. Thank you very much, Mr. Chairman.
    I think that both you and the ranking member gave a good 
overview in terms of the subject matter at hand and what we 
would like to hear this morning from Ambassador Blake.
    Having been 6 weeks ago with both the subcommittee chairman 
and the full committee chairman to both India and Pakistan, I 
came away with a number of impressions that I would like the 
Ambassador to cover in his statement.
    Clearly, with the elections that have been completed in 
India, do we find or does the administration believe, I guess, 
that India is in a stronger position today to carry a more 
regional effort and responsibility as it deals both with 
Pakistan and its other neighboring countries?
    In turn of course, we had our visit in Pakistan, and 
President Zardari was here following that. And I would like to 
get some sense as to whether or not we sense that the Pakistan 
Government is capable of dealing with the counterinsurgency 
efforts that are taking place now in the Swat Valley and 
elsewhere and winning the hearts and minds of the Pakistani 
people.
    At the heart of all of this lies, as both my colleagues 
noted, an important effort I think, and we need to play a 
positive role in--the term ``reset'' I guess is popular these 
days--trying to reset or refocus what has been the traditional 
hostile relationship between India and Pakistan. Because I 
think if that is changed, I think a whole lot of good can come 
from that.
    Obviously, both of those countries are central to our 
efforts with regards to Afghanistan and to Iran. And so I would 
like, Ambassador, you in your narrative to describe to us how 
you see a progression taking place in South Asia with regards 
to a thoughtful, transparent, and clearly a balanced approach 
that uses all the diplomatic tools in our diplomatic toolbox as 
it relates to both carrots and sticks in terms of trying to 
reset, in essence, what has been a challenge for 
administrations in the past, both Republican and Democratic, as 
we try to make the sort of changes that I think deal with this 
jihadist terrorist point of view that obviously is almost, in 
this part of the world, is almost ground zero for that.
    So to cut to the chase, I look forward to hearing the 
Ambassador's testimony.
    And thank you again, Mr. Chairman, for holding this 
important hearing.
    Mr. Ackerman. Thank you. It is now my pleasure to introduce 
the new Assistant Secretary of State for South and Central 
Asian Affairs, Ambassador Robert O. Blake. We are delighted to 
have him here for the first of what I hope will be regular 
appearances before the subcommittee.
    Ambassador Blake is a career Foreign Service officer, 
having joined the Foreign Service in 1985. He has served at the 
American Embassies in Tunisia, Algeria, Nigeria, and Egypt, as 
well as important assignments here in Washington. Ambassador 
Blake served as deputy chief of mission in New Delhi from 2003 
to 2006, and as Ambassador to Sri Lanka and Maldives from 2006 
to mid-2009, when the Senate confirmed Ambassador Blake in his 
new role as Assistant Secretary.
    So Mr. Secretary, without objection, your full statement 
will be entered into the record. I would ask you to summarize 
your testimony and remarks in somewhere between 5 and 7 minutes 
if you could, and then we will move directly to questions.
    Welcome to the subcommittee.

  STATEMENT OF THE HONORABLE ROBERT O. BLAKE, JR., ASSISTANT 
  SECRETARY, BUREAU OF SOUTH AND CENTRAL ASIAN AFFAIRS, U.S. 
                      DEPARTMENT OF STATE

    Ambassador Blake. Chairman Ackerman, Congressman 
Rohrabacher, Congressman Wilson, Congressman Costa, thank you 
very much for inviting me here today.
    And let me say that I appreciate the committee's sustained 
interests in the South Asia region, and welcome the opportunity 
to provide an overview of recent developments and our 
initiatives in South Asia.
    Mr. Chairman, the President has made it a top foreign 
policy priority to disrupt, dismantle, and eventually defeat 
al-Qaeda and affiliated extremist groups and eliminate their 
safe havens in Afghanistan and Pakistan. Under the direction of 
the Special Representative for Afghanistan and Pakistan, 
Ambassador Richard Holbrooke, the broad based interagency 
strategy to achieve this goal is now being implemented.
    Pakistan has demonstrated a renewed commitment to 
countering the militant threat. Since May of this year, the 
government has made progress in pushing back the extremist 
encroachment in Swat, Lower Dir and Buner. The United States 
and the international community have worked together to respond 
quickly to the internal refugee crisis that you mentioned 
resulting from these operations.
    We have committed over $300 million in immediate relief 
efforts and mobilized an international response. Secretary 
Clinton and Ambassador Holbrooke have personally rallied the 
international community for its assistance, most recently in 
Europe and the Gulf, to ensure that U.N. agencies on the ground 
are able to respond effectively to the needs of the displaced.
    As the Afghan elections approach, we are encouraging the 
Afghan people to determine the issues that are important to 
them, demand that the candidates explain their programs, and 
vote for their future. We are working with the Afghan 
Government and international community to help ensure an 
electoral process that is credible, secure, and inclusive. And 
we have provided $120 million to support the elections.
    Mr. Chairman, South and Central Asia is one of the least 
economically integrated regions in the world. As we implement 
the President's strategy on Afghanistan and Pakistan, we are 
working more closely to knit these two countries with their 
surrounding neighbors and with their region, and to open up 
foreign markets to their products. Integration is vital to 
creating interdependence, which will foster peaceful relations, 
closer cooperation, and sustained, vibrant economies in 
Afghanistan, Pakistan, and the broader region.
    The establishment of Reconstruction Opportunity Zones, as 
called for in legislation currently being considered by 
Congress, will be an important step in stimulating economic 
growth in both countries and drawing people away from 
extremism. And let me say that we appreciate the House's 
support for the ROZ legislation. In partnership with other U.S. 
departments and agencies, my staff has engaged donors, host 
governments, and the private sector, and established working 
groups on regional economic integration and cooperation. We are 
working on power transmission, gas pipelines, road development, 
railroads, trade facilitation, border crossings, information 
and communication technology, and water.
    Mr. Chairman, President Obama and Secretary Clinton have 
both expressed a deep commitment to building stronger ties with 
India, a commitment based on mutual respect and mutual 
interests. As Secretary Clinton recently put it in a speech 
here before the U.S.-India Business Council, we see India as 
one of the few key partners worldwide who will help us shape 
the 21st century.
    As you said, sir, this spring, the ruling Congress Party 
won a substantial victory in India. They formed a coalition 
that is supportive of a stronger United States-India 
relationship. And we look forward to working forward with Prime 
Minister Singh's government to make that vision a reality.
    We also continue to support dialogue between the Indian and 
Pakistani leaders. The timing and scope and content of any such 
dialogue are strictly matters for the Indians and Pakistanis to 
decide. Let me just briefly touch on some of the other 
countries, Mr. Chairman.
    In Nepal, we continue to press for progress on implementing 
the peace agreement signed in 2006, including the drafting of a 
new constitution. We believe it is important for the Maoists to 
remain involved in the peace process and in the political 
process, and avoid a return to armed conflict.
    In Sri Lanka, we continue to press the Sri Lankan 
Government to grant humanitarian relief organizations full 
access to the internally displaced persons who are now residing 
in the camps and to engage in political reconciliation with Sri 
Lanka's Tamil minority. Overall access has improved, but more 
progress is needed. The actions that the Sri Lankan Government 
takes now in the aftermath of the war with respect to both 
humanitarian relief and political reconciliation will be 
important to securing a lasting end to terrorism and a lasting 
peace.
    Last December, Bangladesh held the fairest and most 
transparent elections in its history. This promising backdrop 
makes it important for the United States to engage Bangladesh 
as it confronts daunting challenges, including chronic 
political partisanship, widespread poverty, civil and military 
tensions, porous borders, and corruption. We are working with 
Bangladesh to strengthen institutions that will deter violent 
extremism, and have encouraged the new Prime Minister, Sheikh 
Hasina, to engage with the opposition and include them in the 
decision-making process.
    Bhutan's transition from an absolute to constitutional 
monarchy has gone smoothly.
    And the Maldives continues to consolidate its democracy 
after holding historic democratic elections last year that 
ended former President Gayyoom's 30 years in power.
    In conclusion, Mr. Chairman, thank you again for giving me 
this opportunity to discuss one of the most dynamic and 
important regions to U.S. foreign policy and security 
interests. And let me say that I look forward to working 
closely with you and all the other members of this committee to 
advance our Nation's interests in this important region. Now I 
would be happy to take any questions that you and the other 
members have.
    [The prepared statement of Mr. Blake 
follows:]<greek-l>Robert Blake deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Ackerman. Thank you very much, Mr. Secretary.
    Let me start us off with a question about Afghanistan, if I 
may. Secretary Clinton has said that the billions of dollars 
that we have spent to aid Afghanistan during the past 7 years 
have been largely wasted. She cited problems with aid program 
designs, staffing levels, implementation, accountability. That 
echoes the complaints that I have heard from NGOs and others 
over the years about inefficiencies created through the use of 
multiple subcontractors, lack of consultation with Afghan 
officials and incorporation of local priorities in assistance 
projects, and security rules that severely limit interactions 
with Afghans in project oversight.
    I understand that some contracts have been put on hold at 
this point and that efforts are underway to develop a new 
agriculture program for Afghanistan. What other steps are being 
taken to guard against such inefficiencies and ensure that more 
of our taxpayer money is not being wasted? I am particularly 
concerned about the system or the scheme, or to be more blunt, 
the racket, of subcontractors, where somebody with connections 
gets the contract, takes a big chunk of the money right off the 
top for doing nothing but passing the contract off to somebody 
else, who very often does the same thing, and half the money is 
gone before it even reaches anything at a level near a project.
    Ambassador Blake. Thank you very much, Mr. Chairman, for 
that important question.
    And it will not surprise you that I agree with Secretary 
Clinton's assessment of past assistance efforts.
    In terms of what we are doing now, I would say that we 
have, under Ambassador Holbrooke's direction, and the 
Secretary's approval and the President's approval, we are 
completely restructuring our assistance program. As you say, we 
are trying to reduce our reliance on large contractors. We are 
trying to--we are deploying many more civilians there, 
including a large increase in people from the U.S. Department 
of Agriculture and USAID so that they themselves can directly 
implement these programs. And we are working very closely with 
the inspector general that Congress has appointed, who we 
believe has a very important role to play. We also have a much 
more closely integrated civil and military strategy at the U.S. 
Embassy in Kabul to make sure that this is all knitted up with 
our military efforts.
    Mr. Chairman, you mentioned agriculture. That is going to 
be one of the important new directions in our policy in 
Afghanistan. We are going to put a much greater emphasis on 
agriculture--frankly, a much reduced emphasis on eradication of 
poppy--to put people back to work in Afghanistan and to, 
frankly, increase our aid effectiveness. So what is going to be 
different about our new program will be first of all, we are 
going to be working directly with the ministry, in this case 
the Ministry of Agriculture. We are going to have a 
counterinsurgency focus.
    In terms of the agricultural products, a lot of the things 
that we are trying to do will be things like more--helping grow 
more pomegranates, to help grow, for example, nuts. Some of 
those take a long time to actually grow and start to produce 
fruit, so we will have some quick fix programs like voucher 
programs, cash for work programs to get people back to work, to 
get them to support the efforts of the Afghan Government.
    We will also be increasing an irrigation initiative, again 
to enable more crops to be grown in Afghanistan.
    Thank you.
    Mr. Ackerman. Thank you.
    Do we have any idea of the percentage of U.S. aid that has 
been absorbed by contractors that actually didn't perform on 
contracts?
    Ambassador Blake. Sir, I don't know that figure off the top 
of my head, but I will be glad to take that back and get it for 
you.
    Mr. Ackerman. Would you be able to get back to us or tell 
us also how we intend to eliminate that waste?
    Ambassador Blake. Certainly. Certainly.
    Mr. Ackerman. Is there a plan in place now, or are we 
working on that?
    Ambassador Blake. Sir, as you know, Ambassador Holbrooke 
has already testified that he is going to be personally 
reviewing every single program that we have, along with 
Ambassador Eikenberry, to make sure that we remove all waste 
and fraud. And as I said earlier, we will be working very 
closely with the inspector general on this as well.
    Mr. Ackerman. I have 8 seconds left, but I will forego 
that, assuming that I can't ask the question in that time, and 
ask my colleagues to keep within the 5 minutes as well. And if 
we have time, which I assume we will, we will go around again.
    Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    I am going to focus on Afghanistan, although I think that 
the idea that we need to start focusing on trying to promote 
peace between India and Pakistan as a major goal is significant 
and something we need to get into, but the crisis of the moment 
is Afghanistan.
    And there are things that are happening right now that are 
very disturbing. And some of your testimony, quite frankly, is 
very disturbing. Let me ask you this. Under your current plan 
that I have spoken to at length with Mr. Holbrooke and many of 
the people who are the players in this here in Washington, let 
me ask you if you could confirm for me the structure that we 
are trying to build, or have built and continue to rely upon, 
is the structure going to have regional and provisional and 
district leaders appointed by Kabul or elected by the local 
people?
    Ambassador Blake. Well, let me answer that by saying that 
we are--as I said earlier, we are starting to make intensive 
efforts to prepare for the Afghan elections that will take 
place later this year in August. And those will include not 
only Presidential elections but elections for 34 different 
provincial councils. So that will be--that will put in place 
elected representatives in all of these provincial councils.
    Mr. Rohrabacher. So the provincial councils will be elected 
by the people of the province?
    Ambassador Blake. Correct.
    Mr. Rohrabacher. And then who will be--they will then elect 
their own leader, meaning elect the equivalent of the governor?
    Ambassador Blake. Yes. Yes.
    Mr. Rohrabacher. Okay. So a provisional council will then 
be elected and then would sort of like----
    Ambassador Blake. Oversee----
    Mr. Rohrabacher. Sort of like a state legislature then 
elects their leader.
    Ambassador Blake. Right. Correct.
    Mr. Rohrabacher. Very happy to hear that. Thank you.
    Ambassador Blake. Thank you, sir.
    Mr. Ackerman. I am from New York. Can you explain how that 
works?
    Mr. Rohrabacher. It doesn't work.
    Let me ask you this about something that you also mentioned 
in terms of the deemphasizing poppy eradication. Right now many 
of us believe that many of the funds that are being used to 
finance the war with radical Islam, especially in Afghanistan, 
come from that poppy production. So I take it from what you 
have said today and what I have gleaned from other remarks of 
other people involved in this project that we are no longer 
aiming at eradicating poppies.
    How can we--if that is where the resources are for the 
money paying for the insurgency--now, I understand if we 
eradicated the poppies, we would have to give an alternative 
and provide an alternative, which you suggest here, but why is 
someone, if we are going to improve their irrigation and have 
other agricultural products, why are they not just going to 
grow more poppies?
    Ambassador Blake. Thank you, sir, for that important 
question.
    I think it is our assessment that the eradication program 
was not successful, because in eradicating these crops, we were 
not providing alternatives, as you just said.
    So, in that process, we were actually driving people into 
the arms of the Taliban. So it was a counterproductive policy.
    So that is why we are putting a much greater focus on 
providing alternatives. And that will be the agricultural 
programs that I just described. But I don't want to say that we 
are completely stopping eradication. We are just deemphasizing 
it.
    Mr. Rohrabacher. Right.
    Ambassador Blake. And we are obviously going to continue to 
play a major role to arrest drug warlords, to stop the 
networks.
    Mr. Rohrabacher. If we are not going to go to poppy 
eradication, we are deemphasizing that, to say we are going to 
go and arrest the other people involved in the system is 
absurd.
    And you are either going to deemphasize it or you are not. 
And it sounds like to me that we are going to walk away from 
the battle against heroin production out of Afghanistan. And 
Mr. Ambassador, with all due respect, I think that basically 
this deals a lot more with our inability to work with certain 
political leaders in Afghanistan and Pakistan who are up to 
their eyeballs in the drug trade. And this is the same sort of 
problem that has been going on ever since we worked with the 
ISI to help defeat the Russians when they were in Afghanistan. 
And I think that, frankly, that policy is doomed to failure.
    Unless we confront that challenge, we will continue--their 
side will be better financed than our side. And our side 
hopefully is good government and democratic government and a 
government at peace with the United States.
    Thank you very much, Mr. Chairman.
    Mr. Ackerman. Thank you.
    Mr. Costa.
    Mr. Costa. Thank you very much, Mr. Chairman.
    I want to follow up on Mr. Rohrabacher's last comment.
    Having been in Afghanistan several times in the last 2 
years, and Pakistan, as I noted, the reset as I described it 
and as you started to articulate it in terms of what you are 
doing with agriculture in Afghanistan and others, it all sounds 
good, but how do you expect to cut through, both in Afghanistan 
and in Pakistan and other areas, in what my, from all the 
visits I have had there, sense is that corruption in that part 
of the world, if not endemic, seems to be a way of life.
    And you can separate, as my colleague just noted, the 
jihadists and all of those who obviously have an agenda to just 
those who are a throwback from what we dealt with here in the 
1930s with the underworld and you know, kind of a Mafioso style 
kind of a way of life. I mean, these folks live in villages and 
in tribal areas, and the culture and the concept with power 
attached to money attached to their ability to control regions 
are, it seems to me, so much of what is going on there.
    And to create a real central government in Afghanistan, as 
an example--I mean, even in Pakistan, we know that the 
territories really have been left to their own since the 
founding of Pakistan. So what is going to change? How are you 
going to redo this, given the nature of what seems to be a way 
of life?
    Ambassador Blake. Mr. Costa, thank you very much for that 
very important question.
    And I think I agree that corruption is one of the most 
significant challenges that Afghanistan faces. And it is a 
major focus of the United States Government.
    And let me just say that as we try to change the dynamic in 
Afghanistan, obviously, we are looking to improve economic 
opportunity for the people of Afghanistan, looking to improve 
governance, to establish the legitimacy of the central 
government, and expand their writ into other parts of 
Afghanistan. And a major part of that will be for them to 
address the problem of corruption.
    And I think there has been some steps that have been taken 
already. There is a very dynamic Minister of Interior, Minister 
Atmar, who has taken a number of steps already and has himself 
personally committed to addressing corruption across the 
system. They have set up a criminal justice task force in 
Afghanistan.
    The attorney general has an anti-corruption unit. And I 
think, most encouragingly, they have sought advice from our own 
inspector general about how they can do more to address 
corruption. So I think this is very much on the radar screen. 
But they have only just begun, quite frankly, so there is a 
long way.
    Mr. Costa. Are our German allies doing a better job with 
the police, training the police, or are we taking that 
responsibility over now?
    Ambassador Blake. I think we appreciate what they are 
doing. And yeah, we are working closely with them.
    Mr. Costa. So it is getting better you think, the 
performance of the police in Afghanistan?
    Ambassador Blake. Well, again, that is going to be a 
significant challenge, and one of the----
    Mr. Costa. It has been. We have been working on it for 3-
plus years.
    Ambassador Blake. That is right.
    Mr. Costa. And I mean, I am not sure what the criteria are 
we use to measure on how that performance has improved. I mean, 
you are telling me it is getting better. Well, you know, I 
mean----
    Ambassador Blake. I don't want to exaggerate that, sir. I 
think, as I say, we have got a long way to go on the police 
side to help.
    Mr. Costa. I mean, I think that is the heart of it. If you 
are going to try to deal with corruption, I mean that has got 
to be a key component, I would believe.
    Ambassador Blake. Absolutely.
    Mr. Costa. Moving over back to Pakistan, I talked about 
using the levers in the diplomatic tool chest of carrots and 
sticks. Since the recent positive performance of the Pakistani 
Government in the Dir and Swat Valleys, as you have noted, what 
is going to continue, notwithstanding the internal political 
differences that exist between the Sharif family and brothers 
and the current President in trying to ensure that they 
continue to go down this road of what seems to be a more 
positive performance?
    Ambassador Blake. Well, as you said, Mr. Costa, I think we 
are very encouraged by the steps that President Zardari and his 
team have taken recently in Swat, in Buner, and elsewhere. They 
have taken the fight to the Taliban, and that is a very 
encouraging sign. And it is encouraging on two levels: First 
because they are taking the fight to the Taliban; but also 
because it has helped to improve their own standing with their 
people. And there is much greater support now for the Zardari 
government, which again is a very positive sign.
    So as long as they continue to do that, as long as they 
continue to take concerted action, the United States will 
continue to support them. And as you know, we are putting in 
place now efforts to help them to expand their 
counterinsurgency capabilities through things like the Pakistan 
PCCF, Capabilities Counterinsurgency Fund.
    Mr. Costa. So the legislation that we passed out of this 
committee you think is one of those carrots?
    Ambassador Blake. It will be important. That is right. And 
of course, in terms of Pakistan, you know that a major new 
focus of ours will be to dramatically increase economic 
assistance again to help address a lot of the economic 
problems, and also a lot of the governance problems that have 
plagued Pakistan. So we very much appreciate----
    Mr. Costa. Historic.
    Thank you.
    Mr. Ackerman. Thank you.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And Ambassador, I am very grateful to serve as cochairman 
of the Afghan Caucus with Congresswoman Sheila Jackson Lee.
    Ambassador Blake. Right.
    Mr. Wilson. And I have visited Afghanistan eight times. I 
have high respect for President Karzai. I have met with 
Minister Atmar. And I understand that he is a person of 
integrity. I find inspiring my meeting with General Wardak, the 
Minister of Defense, an extraordinary person.
    On my visits, beginning in 2002, when I first visited, this 
was a country that had had a 30-year civil war, identified as 
possibly the third poorest country on earth. There was rubble 
right up to the side of the unpaved roads.
    It is not perfect, but on my subsequent visits, I have seen 
remarkable changes. And I want to give credit to the military.
    My former National Guard unit, the 218th Brigade, was 
stationed there for 1 year training Afghan police and army 
units. And in talking with General Bob Livingston, he said they 
identified their Afghan brothers. There was such a good 
relationship. From my first visit, I was very impressed with 
the Provincial Reconstruction Teams. They were out in the 
provinces. The one I visited was a joint U.S.-South Korean 
reconstruction team working with local government officials. I 
have seen the development of farm-to-market roads, paved roads 
in a country that didn't have any paved roads.
    So it is not perfect, but I want to thank the American 
military for what they have done. The highlight for me was to 
visit with Navy personnel who have volunteered to serve as sand 
sailors in Jalalabad, in Asadabad, where they are building 
bridges.
    But I see this as a NATO function. And so what efforts are 
being made to encourage our NATO allies to fully engage to 
create a civil society?
    Ambassador Blake. Thank you very much for that question, 
Congressman.
    With respect to the PRTs, let me say, I think that is one 
of the most successful elements of our policy, as you yourself 
pointed out. Every provincial governor wants to have a PRT in 
his area because they have made a dramatic difference. And we 
very much appreciate the partnership that the State Department 
and Department of Defense and many, many other agencies who 
participate in these PRTs have enjoyed together.
    In terms of burden sharing, which is I think the heart of 
your question, right now, 14 out of 26 PRTs are run by allies, 
by other countries. So I think they have already assumed a 
great deal of the burden. And we appreciate very much their 
role.
    As you said, you visited the South Korean one, but there 
are many, many other examples. So we think our allies have 
stepped up and have played an important role.
    Mr. Wilson. And I was happy to meet on my last trip with 
troops from Romania, Bulgaria. I mean, it is really exciting to 
see----
    Ambassador Blake. Right.
    Mr. Wilson [continuing]. Our new allies.
    I am concerned, though, about poppy production, to me a 
direct relationship with narcoterrorism. And it is my 
understanding that there are crops, even something as simple as 
wheat or grapes, table grapes, that can replace poppies. And so 
in lieu of ignoring the situation, what are we doing to promote 
alternative crops?
    Ambassador Blake. Well, as we talked earlier, this is going 
to be a major new focus of our policy is to promote agriculture 
as an alternative to poppy. And this is a significant new 
focus. And I think we are well on our way already. We have 
already got more than 50 U.S. Department of Agriculture 
employees who are on the ground. And we are expanding 
irrigation. We are working directly with the relevant 
ministries, and we are excited about the potential for this 
program.
    Mr. Wilson. And I want to commend Chairman Ackerman. He was 
one of the leaders of his party in regard to the civilian 
nuclear agreement. He was very brave standing at the door 
encouraging his colleagues to vote correctly. And so what is 
the status of the civilian nuclear agreement with India?
    Ambassador Blake. Well, as you said, sir, we are making a 
great deal of progress. We are most of the way there now. 
India, as you know, just signed their additional protocol. And 
now they have got to file with the IAEA the list of their 
safeguarded facilities.
    And then, after that, Secretary Clinton will be going out 
there later in July, which will be a major visit for us. And we 
hope at that time that the Indians will be in a position to 
announce when nuclear parks, we hope to have two sites that 
would be announced where American companies can go in and 
provide new reactors, which would be a major source of new 
business opportunities for American companies.
    And then we are also hoping to see action on nuclear 
liability legislation that would reduce liability for American 
companies and allow them to invest in India.
    Mr. Wilson. Thank you for your efforts. This is so good for 
the people of India and the United States.
    Thank you, Mr. Chairman.
    Mr. Ackerman. Thank you.
    Mr. Crowley.
    Mr. Crowley. Thank you, Mr. Chairman.
    Ambassador Blake, good to see you again. Welcome back.
    Ambassador Blake. Nice to see you, sir.
    Mr. Crowley. I am just going to divert for a moment, and 
not to diminish at all what my colleagues have been talking 
about in relation to Pakistan and Afghanistan, but I want to 
just bring you back, you made some mention of Bangladesh. I 
have always felt that they have been given less attention than 
I think they deserve. They have gotten short shrift over the 
years, even in terms of discussion here at the committee level; 
although my good friend and colleague and chairman, Gary 
Ackerman, has always himself maintained a strong interest in 
all issues related to that country.
    You know, being not stuck between but next to rising India 
and faltering Pakistan, they have been given short shrift. They 
have had their troubles, and we know that they have had 
historic elections, as you mentioned in your comments. They are 
never as bad, though, as some of their neighbors. And because 
of that, I think they often fall out of sight, or at least it 
seems to be pushed aside more often than we would like to see.
    Can you tell me what--the new administration, what is it 
going to do to engage the newly elected government? And how can 
we in Congress, in your thoughts, better assist this fledgling 
democracy? And also, have you or anyone in the administration 
been involved with the potential war crimes tribunal the 
Bangladesh Government is trying to establish to prosecute 
suspected war criminals from the 1971 war of secession?
    And lastly, many of my constituents of Bangladesh descent 
have been promoting a Regional River Commission under the 
auspices of the United Nations. I want to know of the United 
States engagement on that issue with Bangladesh and India over 
the water rights of the Ganga and the Ganges Rivers. If you 
could comment on those three questions.
    Ambassador Blake. Thank you, Mr. Crowley. It is good to see 
you again.
    I went out with Under Secretary Burns to India to prepare 
for the Secretary's visit later in July; but right after that, 
I decided to make one of my early priorities a visit to 
Bangladesh, so I spent 2 days there, and, you know, I came away 
with agreeing with what you just said. I think we have some 
opportunities to work with Bangladesh. It is a country that 
everybody knows all the challenges they face--the political 
partisanship that has divided them, the poverty that has long 
plagued that country, the natural disasters that seem to come 
with regular intervals--but at the same time, I think it is a 
country that has achieved quite a lot. I mean, they have 
reduced poverty. They have achieved 5 or 6 percent growth for 
the last 15 years or more, and they have a lot of pockets of 
excellence.
    One of the things that I learned while I was there is that 
they have made tremendous progress in terms of improving 
women's literacy, for example, which is quite rare, in many 
cases, for Muslim countries. So they are really enhancing the 
role of women, and we think there are some opportunities to 
work with them on that.
    They have taken some interesting and important steps on 
madrasah reform in Bangladesh to sort of get at the root of 
some of the extremism there to make sure that the madrasahs are 
producing graduates who can get jobs in the Bangladeshi economy 
and who are not then tempted to join extremist groups. So we 
think there are a lot of opportunities to work more with them, 
and we will try to do what we can to.
    Mr. Crowley. Would that include possibly, Ambassador, some 
high-level visits to Bangladesh----
    Ambassador Blake. Sure.
    Mr. Crowley [continuing]. And return, when they are here, 
some exposure to some of our higher level, both diplomatic as 
well as possibly the President, et cetera?
    Ambassador Blake. Sure.
    When I met with the Foreign Minister, I invited her to 
come, and I think she is going to be coming this fall, so that 
will be a very important visit, and I think she would welcome 
the opportunity to see you.
    With respect to the war crimes tribunal, we discussed that, 
and I said to them that that is obviously up to them, but they 
have got to make sure that this is not perceived by the people 
of Bangladesh as an effort to undermine the progress that has 
been made on democracy, specifically with respect to the 
Jamaat-e-Islami, that this is not perceived as a political 
effort to get rid of a troublesome opponent, and that this is 
really, clearly, a designed effort. So I think they understood 
that message, but it is a very fine balance that they are going 
to have to draw on that.
    With respect to the regional river commission, I confess I 
have not been in office long enough to be able to tell you what 
we are doing on that particular initiative, but I will 
certainly take that back and find out the answer for you.
    Mr. Crowley. Thank you. Thank you.
    Mr. Ackerman. Thank you.
    Mr. Royce.
    Mr. Royce. Thank you, Mr. Chairman.
    Welcome, Assistant Secretary Blake. It is good to see you.
    You noted the establishment of reconstruction opportunity 
zones in Afghanistan and Pakistan. Unfortunately, because of 
the way in which this legislation has been written in Congress 
with the restrictions and with the burdensome requirements, I 
think that that legislation is not going to do anything to 
increase trade with Pakistan, and trade with Pakistan right now 
should be an important goal.
    As this bill moves to conference with the Senate, and as 
the process continues, this provision must be liberalized if it 
is going to affect Pakistan. I think you would concur with that 
judgment.
    Ambassador Blake. Sure.
    Mr. Royce. I think, on India, you mentioned the strategic 
partnership with India, and I know that Secretary Clinton is 
soon going to travel there. I would suggest that, at this point 
in time, the security relationship be a big part of that focus, 
of that opportunity for counterterrorism cooperation. I think, 
in many ways, we are just beginning to realize the potential of 
the relationship with India in terms of promoting stability and 
security in the region, but this is an area that is of 
immediate interest, I think.
    In terms of Bangladesh--and let me just raise a word of 
caution here, because you testified that extremism finds little 
popular support there. I think this bears close scrutiny 
because of the madrasahs that are opening up. I have spoken to 
a number of people on the ground, including those in Bangladesh 
who are monitoring this situation, and they tell me that the 
Islamist schools there are increasingly radicalizing young 
Bangladeshis, and that they are proliferating at a particularly 
fast pace, and, in addition, that those that have been 
established are, shall we say, some of the most extreme in 
South Asia. So there should be some focus on that and also on 
some of the funding that has come in. Reportedly, in the media, 
it is from the Gulf States in order to fund the types of 
madrasahs we are talking about right now. That would be, I 
think, on order.
    Lastly, Chairman Ackerman brought up the point about his 
concern over the contracting process in Afghanistan, and you 
explained that you were completely restructuring the 
contracting process, looking at how we spend our end dollars. I 
hope that Afghan Americans play a large role in that process 
because I am also very interested in how the Afghan Government 
contracts. It is, frankly, a mess, and China and other 
countries play a very detrimental role. Putting it charitably, 
I would say they play that role by bringing contracting 
standards that are far from acceptable. I would like your 
thoughts on that. From my trips to the regions, I have 
firsthand examples from those in our Government who have 
witnessed that and who have relayed that to me about what we 
can do on that front.
    Ambassador Blake. Thank you very much, sir, for those 
questions. Let me try to take them in order.
    First of all, I agree entirely with your comment on the 
importance of security cooperation with India. As you probably 
know, we just had our first meeting of our Joint 
Counterterrorism Working Group, which is chaired by our 
Coordinator for Counterterrorism. An Indian delegation came 
here, so I think that is an early signal of the importance that 
we attach to working very closely with our Indian friends on 
this.
    More broadly, you know that the Federal Bureau of 
Investigation and other agencies have been working closely with 
their Indian counterparts on various aspects of these security 
challenges, so we agree with what you have been saying.
    With respect to the Bangladeshi madrasahs, I must say I did 
not hear the same fears that you articulated about the large 
proliferation of madrasahs. Very few people said that to me, 
but certainly I will take that under advisement, and we will 
check on that.
    Mr. Royce. Ambassador Blake, I might send you some 
information on that, too, okay?
    Ambassador Blake. Sure.
    As I said, I think, at the same time, the Bangladeshi 
Government is very much focused on this, and they see the 
importance of working with these madrasahs and of trying to 
reform their curricula so that they are turning out graduates 
who can get jobs and who are not going to then join the ranks 
of the extremists. So I think this has certainly gotten their 
attention, and our Embassy is working very closely with Sheikh 
Hasina and her team on this very important issue.
    On the question of Afghan Americans, I mean, I could not 
agree more. I think it is very important to include Afghan 
Americans in this process. One of the encouraging signs 
recently has been the return of Afghan Americans to Afghanistan 
to help in all of these processes. So we are very encouraged by 
that, but we appreciate your comments.
    Mr. Royce. I appreciate that. It is surprising, though, how 
many of these contracts go to China or go to neighboring 
countries where the work crews do not end up being Afghani. If 
we want to build that capacity internally in Afghanistan, in 
particular because of the way in which these contracts are let 
and the questionable nature of them of which you are quite 
familiar, this is going to have to be an area of real focus. I 
appreciate your testimony, Ambassador Blake.
    Ambassador Blake. Thank you.
    Mr. Ackerman. Mr. Connolly.
    Mr. Connolly. Thank you, Mr. Chairman, and thank you for 
holding these hearings.
    Welcome, Ambassador Blake, and thank you for being here 
today.
    Mr. Chairman, I have an opening statement. I would just ask 
unanimous consent to have it entered into the record.
    Mr. Ackerman. Without objection.
    Mr. Connolly. Let me ask about contracts. When I was in 
Afghanistan earlier this year, what struck me was the enormous 
explosion in the use of CERP funds by military commanders in 
the field. Now, within reason, that program may make an awful 
lot of sense in terms of trying to broaden our mission and 
demonstrate the constructive aspects of it; however, when you 
start to get to figures that look like $900 million, that is a 
lot more than walking-around money, and that starts to look 
like one of the largest bilateral aid programs in the world.
    I am deeply concerned. Military commanders in the field, 
they know a lot. Experts in foreign assistance, in development 
assistance and in technical assistance they are not. When you 
ask what could go wrong with $900 million in the field in 
Afghanistan, for example, the answers are not all wonderful.
    I wonder if you would comment on what the State Department 
is doing or on whether the State Department even shares my 
concern that perhaps this has gotten to the point where we need 
to rein it in or need to certainly look at a new framework for 
the administration of such funds.
    Ambassador Blake. Thank you very much, Mr. Connolly.
    I do not know if you remember, but before I joined the 
State Department, I actually worked for a couple of months on 
the Senate Foreign Relations Committee, and Mr. Connolly was 
then a senior staffer, so it is good to see you again.
    Mr. Connolly. It is good to see you. You have a nice title. 
I had to go into politics.
    Ambassador Blake. With respect to the CERP funds--and it is 
an important question--I think the CERP funds actually have 
been one of our most successful programs in Afghanistan, so 
that is why we have had an increase in those. As I said earlier 
to one of the earlier questions, every one of the provincial 
governors wants to have a PRT in their area because the PRTs 
and the CERP funds that they administer have made a great deal 
of difference in terms of local development in these areas.
    With respect to your question about, you know, are these 
being used wisely, I think they are, because in almost every 
PRT that we have, we have interagency teams who are there, who 
are administering these. We have agricultural experts; we have 
USAID experts; and we have other people who are administering 
these programs. So I think you can have a high degree of 
confidence that the money is going to good use.
    Mr. Connolly. I hope you are right. Nine hundred million 
dollars is a lot of money. A word of caution: I want it to 
work, too, and I want flexibility in the field, but when you 
ask yourself what could go wrong, I just caution the State 
Department and AID and the military that you have got to watch 
that program carefully.
    Ambassador Blake. I appreciate that.
    Mr. Connolly. Let me turn my attention to Sri Lanka. It 
would seem that the long-running battle between the government 
and the Tamil Tigers has now concluded.
    What is the State Department's assessment of the likely 
success and desirability by the Sri Lankan Government for the 
reintegration of the Tamils into Sri Lanka's society in the way 
that avoids some of the tensions and frictions that caused some 
of the trouble in the first place?
    Ambassador Blake. On the question of Sri Lanka, as I say, 
Sri Lankans achieved an important victory in the north by 
defeating the LTTE in the north. As a result of that, the LTTE 
no longer controls any territory whatsoever in Sri Lanka, which 
is an important step forward.
    Now, Sri Lanka has to take additional steps to really win 
the peace and to ensure a lasting peace, to ensure 
reconciliation, so we are really focused on two different parts 
of that. First is the rapid resettlement of the almost 300,000 
internally displaced persons who are in the camps or who are in 
and around Vavuniya. Then, secondly, it is to encourage the 
government to undertake a real political reconciliation 
program. That program would have several elements: First, to 
undertake local elections and provincial council elections so 
there can be an elected government in the north for the people 
of the northern region. They have not had an elected government 
for the entire time of the LTTE rule; more broadly, to look at 
other ways to share power with the Tamils and with other 
minority communities. That would include things like 
implementing the 13th Amendment, which is already in the Sri 
Lankan Constitution, which provides for the devolution of power 
to these provincial councils, but to undertake new steps to 
ensure that they have real power because the 13th Amendment has 
not really been implemented to date. So there are additional 
steps that are needed there.
    Then more broadly, there has been an effort under way for 
many years now under what is called the All Parties 
Representative Committee, and that has been looking at various 
possible constitutional amendments, again, to share power. That 
process is near its conclusion now, and we have encouraged the 
Sri Lankan Government to finish that process and to achieve a 
consensus among the parties about what are the steps that they 
should do and undertake to provide for additional 
constitutional reforms. The President, for example, has been 
talking about creating an upper house of Parliament that would 
be comprised of representatives from the various provincial 
councils. That, again, would be a way to further share power.
    So I think all of these are things that should be 
undertaken, and if they are, those will help to really achieve 
political reconciliation.
    Mr. Ackerman. Thank you.
    Mr. Connolly. Thank you, Mr. Chairman.
    Mr. Ackerman. We will go around again, if the committee 
would like.
    You have a unique--it is not originally unique, but it is 
unique within the Department. It is almost a structure where 
you have the President's representative as well as the 
Secretary. Structurally do you report or answer to both the 
Secretary and Ambassador Holbrooke? How is that working?
    Ambassador Blake. Mr. Chairman, Ambassador Holbrooke is in 
charge of our policy on Afghanistan and Pakistan.
    Mr. Ackerman. Not the Secretary?
    Ambassador Blake. Well, he is in charge of the policy. He 
reports to the Secretary and, through the Secretary, to the 
President. I am in charge of the South Asia Bureau, so that is 
all the other countries in South Asia and also in Central Asia 
as well; but, of course, Ambassador Holbrooke and I work very 
closely together.
    Mr. Ackerman. You say all the other countries or all the 
countries?
    Ambassador Blake. All the other countries of South Asia--in 
other words, not Afghanistan and Pakistan. Those are his area 
of responsibility.
    Mr. Ackerman. So you have no area of responsibility over--
--
    Ambassador Blake. Not in Afghanistan and Pakistan. He is in 
charge of that policy.
    The way we coordinate is we share a deputy assistant 
secretary. Ambassador Holbrooke's deputy is a career Foreign 
Service officer by the name of Paul Jones, who is his deputy, 
but who is also a deputy assistant secretary in my bureau. So, 
that way we make sure that we are properly coordinating and 
communicating with each other.
    Mr. Ackerman. So he answers directly to the Secretary and 
to the President as to those areas?
    Ambassador Blake. Yes, sir.
    Mr. Ackerman. The Secretary has no staff directly in those 
areas?
    Ambassador Blake. No.
    Mr. Ackerman. None at all?
    Ambassador Blake. No. Of course, she has staff that follows 
the issues very closely, but they are not dedicated 
specifically to Afghanistan and Pakistan.
    Mr. Ackerman. How do you assess that is working out?
    Ambassador Blake. I assess it is working very well so far. 
I mean, I go to a lot of their meetings. We exchange. We clear 
on each other's papers. I talk to the Ambassador several times 
a day, so I think it is working well.
    Mr. Ackerman. Should I continue asking you questions about 
Afghanistan and Pakistan?
    Ambassador Blake. As you wish, sir. I am at your disposal.
    Mr. Ackerman. In that case, I will.
    In announcing the new Afghanistan-Pakistan strategy a 
couple of months ago, the President stated ``the goal of clear 
metrics to measure progress and hold ourselves accountable.'' 
That is a quote.
    At a hearing yesterday, Ambassador Holbrooke indicated that 
these metrics are complete. My question is: Were the 
Governments of Afghanistan and Pakistan consulted in preparing 
these metrics? When can we expect them to be announced?
    Ambassador Blake. Sir, I do not have an answer to that 
question. That is something that Ambassador Holbrooke has been 
working on directly. Let me just take that question. I want to 
make sure I get the right answer for you in terms of when it is 
going to be announced and so forth.
    Mr. Ackerman. So, if we have questions about Afghanistan 
and Pakistan, they should not be to representatives of the 
Secretary of State, they should be to those people who work 
with and for Ambassador Holbrooke?
    Ambassador Blake. Yes. I mean, I am certainly familiar with 
the broad outlines of our policy, and as I say, I work closely 
with him, but I am not involved in the day-to-day 
implementation of the strategy.
    Mr. Ackerman. I guess we will figure it all out, but it is 
a bit awkward from our working perspective.
    Ambassador Blake. Yes.
    Mr. Ackerman. Another question about Pakistan. Their 
offensive against the Taliban in the Swat Valley, does this 
offensive and recent statement by the army chief that the head 
of the Taliban in Pakistan must be eliminated--those were his 
words--indicate a turning point in Islamabad's strategic 
calculation with both the government's and the military's 
viewing the Taliban there as a serious threat? If so, does 
Pakistan have the capacity to succeed in this effort? What more 
do they require, or should this, again, be referred to Mr. 
Holbrooke's shop?
    Ambassador Blake. No. I think there has been a turning 
point, sir, and we are very encouraged by the progress that has 
been made in Swat Valley. As you said, much more needs to be 
done still, and I think they do have the capabilities to 
undertake that. An important part of that will be, as 
Ambassador Holbrooke said, to reorient the Pakistani military 
from its focus on India toward a focus on dealing with the 
extremist threats that it faces. Some troops already have been 
deployed away from the Pakistan-India border, but I think more 
needs to be done in that respect. We are encouraged by the 
progress that has been made so far, sir.
    Mr. Ackerman. Thank you.
    Mr. Royce.
    Mr. Royce. Thank you, Mr. Chairman.
    I think, Ambassador, I would like to further examine this 
issue of aid distribution and aid spending.
    With regard to the Commander's Emergency Response Program, 
which was discussed earlier--and I have had an opportunity to 
talk to commanders in the field in Afghanistan who have 
deployed this in PRT teams, but also to Afghanis. I think the 
conclusion that they have reached is that the impact is 
immediate, and there is a chance after the fact to audit. I do 
not know of any serious problems that have ever arisen, and 
yet, on the ground, we have got some pretty exciting 
consequences of that program.
    General Petraeus talked to us before, and I have seen this 
also since it was deployed in Iraq by Petraeus. It has become 
sort of a central thesis to the counterinsurgency strategy, and 
it has worked pretty well in the minds of the officers on the 
ground and also in the local community. I think if you contrast 
that with the foreign aid process, which, you know, in the view 
of our Secretary of State is broken--and I think, if we recall 
her words, she said it is heartbreaking the amount of aid 
spending that has been undertaken, given the results. I think 
she is right, that that is heartbreaking. So I do not have 
confidence at the end of the day that the system in Washington 
with Beltway NGOs is better than our commanders on the ground 
when it comes specifically to their deployment of this 
strategy. So I was going to make that counterargument to the 
one raised and just get your response, Ambassador Blake.
    Ambassador Blake. Well, thank you, sir.
    As I said earlier with respect to the CERP funds, this has 
been one of our more successful programs already because of 
precisely what you said. It is a quick-dispersing, quick-impact 
program that gets people immediately back to work. It is a more 
nimble program in terms of eliminating huge layers of 
bureaucracy, and it is in great demand by the people of 
Afghanistan, and I think that is the most important test.
    As a rule, also, we are, as I said earlier, trying to 
reduce our dependence on large contracts and are trying to move 
to much smaller contracts, and in many cases are just trying to 
give money directly to the Afghan Government to support the 
Afghan Government. To do so, we are also deploying an 
increasing number of civilians to help work and disburse those 
and make sure that the money is well spent.
    Mr. Royce. I think that is the key there. Going through the 
Afghan Government, bringing the auditors in tow and having them 
in every stage of the process is going to be a prerequisite for 
any major assistance.
    Ambassador Blake. Then, of course, we are going to work 
very closely with SIGAR, with the inspector general, to make 
sure that these are properly spent.
    Mr. Royce. Thank you, Ambassador Blake.
    I will yield back, Mr. Chairman.
    Mr. Ackerman. Well, thank you very much, Mr. Secretary. 
Your maiden voyage before our committee, I think, was very 
successful and was much appreciated by all of us. Very 
edifying. We look forward to having you back and working 
closely with you. Thank you very much.
    The committee stands adjourned.
    [Whereupon, at 11:11 a.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<greek-l>Minutes deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<greek-l>Ackerman statement deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<greek-l>Connolly statement deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<greek-l>QFR Crowley deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<greek-l>QFR Royce deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<greek-l>QFR Ackerman deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
